RENDERED: OCTOBER 29, 2020
TO BE PUBLISHED

4

Supreme ©mtrf of IShttfurkp
2019-SC-0164-MR
BRADY LEE RAY

V.

APPELLANT
ON APPEAL FROM GRAVES CIRCUIT COURT
HONORABLE TIMOTHY STARK, JUDGE
NO. 17-CR-00058

COMMONWEALTH OF KENTUCKY

APPELLEE

OPINION OF THE COURT BY JUSTICE LAMBERT
AFFIRMING
Brady Ray was convicted on one count each of attempted murder, firstdegree robbery, first-degree burglary, first-degree wanton endangerment, and
violating an emergency protective order/domestic violence order (EPO/DVO).
He now appeals his resultant sixty-five-year sentence to this Court. After
review, we affirm.
FACTUAL BACKGROUND
Ray and Denise1 were high school sweethearts who grew apart but
reconnected many years later. Soon after their reunion they decided to marry.
From their wedding day in May 2016 until August 2016, Ray and Denise lived

V

1 The facts of this case involve domestic violence. We will therefore refer to the
victims by pseudonyms.

- »

together with Denise’s two children. In August, Denise’s mother suddenly
passed away. Because of this, Ray, Denise, and her children moved in with
Denise s father Tim to assist in his care. Tim is paralyzed from the waist down
and must use a wheelchair. He also suffers from heart health issues and had
several surgeries during the time Denise and Ray lived with him.
When Denise and Ray initially moved in with Tim, all was well. However,
the marriage soon turned sour when Denise discovered Ray’s addiction to
prescription pain medication. Denise was clear with Ray from the beginning of
their relationship that drug abuse was “a deal breaker,” as she did not want
her children to be exposed to that lifestyle. Accordingly, in mid-November
2016, Denise asked Ray to pack his belongings and leave. Ray’s angry reaction
was to pull Denise out of bed by her foot and drag her across the room.
Because of this incident Denise was granted an EPO/DVO against Ray that
was effective until November 21, 2017. The EPO/DVO permitted contact1
between the two via telephone. Denise explained that Ray told her he would go
to rehab, and it was her wish to mend the marriage if he maintained sobriety.
However, Denise quickly discovered that Ray’s claims regarding rehab and
j

doing better were lies, and she filed for divorce soon after.
Then on January 31, 2017, Ray texted Denise to tell her he lost his job,
that he was “going to end it,” and that he “wouldn’t be here tomorrow.” When

(

she did not respond, he sent another text that read “I hope you’re happy, it’s
going to end tonight.” The crimes at issue took place later that night when

2

Tim, Denise, and Denise’s nine-year-old son Josh were the only people in the
home.2 Tim’s house has a split floor plan; Tim’s bedroom is on the left side of
the home, Denise and Josh s bedrooms are on the right, and a living room is
between the two. Around 4 a.m. Denise awoke to the sound of glass breaking
and thought Tim had fallen out of bed, which had happened in the past. As
she was walking towards Tim’s bedroom to check on him, she looked in the
living room and saw Ray coming at her with a hammer in his hand. He had
broken the lengthwise panes of glass out of the back door and entered the
home. When she asked Ray why he was there he replied, “you’re going with
me

When she refused, he hit her in the face with the hammer over her right

eye. She turned to go back towards her bedroom, he hit her again, and she fell. Denise said that Ray continued to hit her with the hammer and punched
and kicked her while she was on the floor.
At this point, Josh came to the doorway of his bedroom and began
beggifig Ray to stop hitting Denise. Denise testified that Ray said to Josh, “I’m
not going to hurt you, but I’m going to kill your mom.” Denise told Josh to go
back to bed, but instead Josh hid in the bedroom closet and called 911. Ray
continued to beat Denise and again told her to go with him, but this time he
told her he would kill Tim if she did not comply. When she told him, she was
not going with him he started to go down the hall towards Tim’s room, hammer
in hand. Denise grabbed Ray’s leg, causing one of his shoes to fall off, but

2 Denise’s other child was at his father’s house.
3

\

' i .

when she realized she could not stop him she started crawling back toward the
bedroom Josh was in.
Tim testified that he was lying in;bed when Ray came into his room. Ray

i

pushed his wheelchair away and jumped onto his bed. Ray raised the hammer
and said, “I’m going to kill you too, you son of a bitch.” He never struck Tim
with the hammer because by the time he raised it, Denise had crawled back
into the bedroom and slammed the door shut. As soon as Ray heard the door

%

close, he immediately left Tim’s room and went back down the hallway after
her.
I

■

Ray began hitting the bedroom door handle with the hammer. By then,
Denise and Josh were climbing out of the bedroom window. Denise pushed
Josh out of the window first and was able to get out of the window herself just
as Ray gained entry to the rpom. Rather than following the two out the
window, Ray dropped the hammer in the floor, where it was later found, and
went out the front door of the house. Denise and Josh ran screaming for help
to their neighbor Kirk’s house and Ray pursued them. Josh ran onto Kirk’s
porch and began beating on the front door. Meanwhile, Ray caught up to them
and jerked Denise off the porch steps by her hair and threw her on the ground.
Kirk testified that he awakened to the sound of what he believed was his
dog fighting another dog outside. He therefore grabbed his gun and went to his
front door. When he opened the door, he saw Josh standing at the threshold
and then saw Denise on the ground in his front yard with Ray standing over
her. Kirk pointed his gun at Ray and told him to back off. Ray put his hands
4

4

up and started to back away. Kirk watched Ray cross the street and re-enter
Tim’s home through the front door.
When Ray re-entered the home, he stole Denise’s purse which contained
her driver’s license, debit and credit cards, as well as approximately $800 in
cash and checks.3 He then exited the home through the back door. A K-9
officer later tracked Ray’s scent from the back door down a gravel driveway
behind the home. The scent stopped at a barn approximately 300 yards from
the home. Based on this, the investigating officers believed Ray had parked his
vehicle at the barn and left the scene from that location.
.4

Denise was taken to the hospital later that morning. She had no broken
bones and was not bleeding. Her injuries included a black eye and several
bruises on her left leg and hip, buttocks, both arms, and left shoulder.
The day after the attack, Ray used one of Denise’s credit cards to rent a
hotel room in Murray, Kentucky, the receipt for which contained his name and
i

contact information. In addition, a shoe matching the one left in Tim’s home
and clothing matching the description Denise provided were left in the hotel
room. Sometime shortly after, officers were able to track Ray down in
Tennessee. When Ray’s arresting officer searched his person incident to his
arrest, Denise’s driver’s license and two of her credit cards were located in his
wallet. During his subsequent interrogation Ray admitted smashing the back
door of Tim’s house that night, being in the house, and that an altercation with

3 Denise is a hairdresser and had not been to the bank to deposit her payments
in about three weeks.
5

r

Denise occurred. He denied hitting Denise with a hammer or otherwise hurting
her.
At trial, the jury convicted Ray for the attempted murder of Denise, firstdegree robbery for stealing Denise’s purse, first-degree burglary for breaking
into Tim’s home, first-degree wanton endangerment for threatening to kill Tim
with a hammer, and violation of an EPO/DVO.' He was sentenced to sixty-five
years/'
Additional facts are discussed below as necessary.
ANALYSIS
Ray asserts two alleged errors before this Court. First, that the trial
court erred by denying two of his directed verdict motions. And, that his
sentencing phase was unfairly tainted by incorrect information regarding
parole eligibility.
I. DIRECTED VERDICT ISSUES
A. PRESERVATION
Ray argues that the trial court committed reversible error when it denied
his directed verdict motions for first-degree robbery and first-degree wanton
endangerment.
Regarding the first-degree robbery charge, he asserts that the elements of
first-degree robbery were not met because his use of force against Denise was
not contemporaneous with his theft of her purse. In other words, that he had
completed his attack on Denise before forming the intent to steal her purse and
before his subsequent completion of that theft.
6

In addition, he asserts that the elements of first-degree wanton
endangerment were not met because simply raising the hammer at Tim, alone,
was not sufficient to create a substantial danger of death or serious physical
injury.

In response, the Commonwealth asserts that these alleged errors were
not properly preserved for our review. As the Commonwealth correctly
indicates, this Court has long held that
[a] motion for a directed verdict of acquittal should
only be made (or granted) when the defendant is
entitled to a complete acquittal i.e., when, looking at
the evidence as a whole, it would be clearly
unreasonable for a jury to find the defendant guilty,
under any possible theory, of any of the crimes
charged in the indictment or of any lesser included
offenses.4

v.V

And, when the evidence is insufficient to support one or more, but not all, of
the counts, “[t]he proper procedure for challenging the sufficiency of evidence
on one specific count is an objection to the giving of an instruction on that
charge.”5
4

At trial Ray made directed verdict motions at the close of the
Commonwealth’s evidence on all of the counts against him except for the count
of violating an EPO/DVO.6 Therefore, the Commonwealth asserts, the proper

5 Seay v. Commonwealth, 609 S.W.2d 128, 130 (Ky. 1980). See also e.g., Gray
v. Commonwealth, 534 S.W.3d 211, 216-17 (Ky. 2017); Combs v. Commonwealth, 198
S.W.3d 574, 578-79 (Ky. 2006); Campbell, 564 S.W.2d at 530; and Kimbrough v.
Commonwealth, 550 S.W.2d 525, 529 (Ky. 1977).
6 Ray’s directed verdict motions identified the elements of the respective charges
the Commonwealth allegedly failed to prove. Ray renewed his motion at the close of all
7

means to preserve Ray’s sufficiency of the evidence arguments would have been
for him to object to giving a juiy instruction on first-degree robbery and firstdegree wanton endangerment charges. Review of the record demonstrates that
he did not do so, and in fact, Ray tendered instructions on both of those
charges. Consequently, at first glance, we are inclined to agree with the
Commonwealth’s position
However, after a thorough review of our case law on the subject, we are
also inclined to agree with Ray’s argument that the rules regarding the
preservation of a directed verdict issue have historically been inconsistently
•

applied. That inconsistent application warrants discussion.
A good starting point is to identify precisely what our jurisprudence
currently requires to preserve an alleged error regarding a failure to grant a
motion for directed verdict. The foundation of that jurisprudence is Kimbrough,
supra. Defendant Kimbrough was “charged with one count of armed assault
with intent to rob, in violation of former KRS7 433.150, and as a habitual
1 i

criminal within the meaning of former KRS 431.190.”8 On appeal to this
Court, Kimbrough argued “that the trial court erred in denying his motion for a
directed verdict of acquittal on the habitual criminal charge because the

the evidence in a general manner, i.e. by simply stating “we renew our motion.” But,
as Ray did not present any evidence, he was not required to renew his motion at all to
preserve the issue. Hampton v. Commonwealth, 231 S.W.3d 740, 750 (Ky. 2007).
7 Kentucky Revised Statute.

,>

8 Kimbrough, 550 S.W.2d at 527.
8

Commonwealth did not produce any direct proof that the prior felonies were
committed in sequential order.”9
The Kimbrough Court held that Kimbrough failed to properly preserve his
argument for appellate review because he “failed to move for a directed verdict
at the close of all the evidence, instead making this motion only at the close of
the Commonwealth's case,”10 before he subsequently presented evidence in his
case-in-chief.11 In this vein, the Court reasoned that
[a] motion for a directed verdict made at the close of
the plaintiffs (here the Commonwealth's) case is not
sufficient to preserve error unless renewed at the close
of all the evidence, because once the defense has come
forward with its proof, the propriety of a directed
verdict can only be tested in terms of all the evidence.
If there has been no motion for a directed verdict at
the close of all the evidence, it cannot be said that the
trial judge has ever been given an opportunity to pass
on the sufficiency of the evidence as it stood when
finally submitted to the jury. In effect, therefore, a
motion for directed verdict made only at the close of
one party's evidence loses any significance once it is
denied and the other party, by producing further
evidence, chooses not to stand on it.12
The Court then took its conclusion one step further by stating that “even
if [Kimbrough's] motion for a directed verdict of acquittal on the habitual
criminal charge had been made at the conclusion of all the evidence in this
case, it would not have been the proper method of challenging the sufficiency of

9 Id. at 529.
10 Id.
11 Id. at 527.
12 Id. at 529.
9

the evidence on that issue.”13 Because “[w]hen the evidence is insufficient to
sustain the burden of proof on one or more, but less than all, of the issues
presented by the case, the correct procedure is to object to the giving of
instructions on those particular issues.”14 Accordingly, the Court noted that
[t]he appropriate procedure [would] have been for
[Kimbrough], at the close of the evidence and before
the instructions were given, to apprise the trial court
that he objected to the giving of an instruction or
instructions based on the previous convictions for the
reason that they had not been sufficiently proven.15
A month after Kimbrough was rendered this Court again took the rules
regarding directed verdicts a step further in Queen v. Commonwealth by
applying both of the aforementioned Kimbrough rules to a case where the
defendant was faced with only a single count indictment.16 In Queen, Queen
was convicted of one count of first-degree robbery.17 Queen moved for a
directed verdict at the close of the Commonwealth’s case and at the close of all
the evidence and stated the specific grounds therefor.18 On appeal to this
Court, Queen argued the trial court erred by denying his motion for directed
verdict.19 The Queen Court held:

13 Id.

14 Id. (citing Columbia Gas of Kentucky, Inc. v. Maynard, 532 S.W.2d 3, 7 (Ky.
1976)).
is Id.
is 551 S.W.2d 239 (Ky. 1977).
17 Id. at 239.
is Id. at 240.
is Id. at 239.
10

\

The jury was properly instructed as to both first degree
robbery and second degree robbery...Queen makes no
claim that the instructions were improper. Queen's
motion for a verdict of acquittal on the charge of first
degree robbery at the close of the Commonwealth's
evidence, and a renewal of that motion at the
conclusion of all of the evidence, was not the proper
method of challenging the sufficiency of the evidence
on that issue.

*

When the evidence is insufficient to sustain the
burden of proof on one or more, but less than all, of
the issues presented by the case, the correct
1
procedure is to object to the giving of instructions on
those particular issues....” [Kimbrough v.
Commonwealth, 550 S.W.2d 525 (Ky. 1977)]. At the
close of all the evidence and before the trial court
instructed the jury, Queen should have objected to the
giving of an instruction based on armed robbery in the
first degree. This he failed to do.20

In following year, as we have previously mentioned, Campbell, supra,
restated this holding in a different way by directing:
A motion for a directed verdict of acquittal should only
be made (or granted) when the defendant is entitled to
a complete acquittal i.e., when, looking at the evidence
as a whole, it would be clearly unreasonable for a jury
to find the defendant guilty, under any possible theory,
of any of the crimes charged in the indictment or of any
lesser included offenses.21
' *.
Thus, the following rules regarding preservation can be discerned from
Kimbrough, Queen, Campbell, and their progeny.
The “first rule” is: when a defendant moves for a directed verdict, he
must do so at the close of the Commonwealth’s evidence and at the close of all

20 Id. at 241 (internal quotation marks omitted).
21 Campbell, 564 S.W.2d at 530 (emphasis added).
11

the evidence. Unless the defendant puts on no evidence, in which case he
must only move for directed verdict at the close of the Commonwealth’s
evidence and is not required to renew the motion at the close of all the
evidence.22 The defendant’s motions for directed verdict must be specific about
the particular charge the Commonwealth failed to prove, and state the specific
element(s) of that charge the Commonwealth failed to prove. We take no issue
with this requirement as it, for the most part, comes directly from CR23 50.01,
“Motion for directed verdict,” which provides in its entirety:
A party who moves for a directed verdict at the close of
the evidence offered by an opponent may offer evidence
in the event that the motion is not granted, without
having reserved the right so to do and to the same
extent as if the motion had not been made. A motion
for a directed verdict which is not granted is not a
waiver of trial by jury even though all parties to the
action have moved for directed verdicts. A motion for a
directed verdict shall state the specific grounds
therefor. The order of the court granting a motion for a
directed verdict is effective without any assent of the
jury.24

22 Hampton, 231 S.W.3d at 750.
23 Kentucky Rule of Civil Procedure.
24 Although a rule of civil procedure, CR 50.01 is applied to criminal
proceedings by virtue of Kentucky Rule of Criminal Procedure (RCr) 13.04: “The Rules
of Civil Procedure shall be applicable in criminal proceedings to the extent not
superseded by or inconsistent with these Rules of Criminal Procedure.” See also
Cutrerv. Commonwealth, 697 S.W.2d 156, 158-59 (Ky. App. 1985) (“There is no
criminal rule in Kentucky dealing with directed verdicts as such, but RCr 13.04
imports the Civil Rules into criminal proceedings to the extent that they are not
superceded (sic) by or inconsistent with the criminal rules.”).
12

Further, this rule is not cause for concern because it is, by and large, both
frequently and consistently applied.25
The “second rule” that emanates from these cases is more complicated
and will be the primary focus of this opinion. That rule is: to preserve a
■f

directed verdict issue for appellate review, in addition to the procedure
discussed in the foregoing paragraph, the defendant must also move for a
directed verdict on every charge of the indictment against him and any lesser

25 See, e g., Shouse v. Commonwealth, 481 S.W.3d 480, 489 (Ky. 2015) (holding
defendant preserved her directed verdict argument because she moved for directed
verdict at the close of the Commonwealth’s evidence and at the close of all the
evidence); Doneghy v. Commonwealth, 410 S.W.3d 95, 102 n.4 (Ky. 2013) (holding
defendant properly preserved his directed verdict argument because he moved for
directed verdict at the close of the Commonwealth’s evidence and at the close of all the
evidence); Newcomb v. Commonwealth, 410 S.W.3d 63, 79 (Ky. 2013) (holding
defendant failed to preserve his directed verdict argument because his motion for
directed verdict failed to state the specific grounds therefor); Jones v. Commonwealth,
331 S.W.3d 249, 252 (Ky. 2011) (holding defendant failed to preserve her motion for
directed verdict argument because her motion for directed verdict failed to state the
specific grounds therefor); Wright v. Commonwealth, 239 S.W.3d 63, 65 (Ky. 2007)
(holding defendant’s directed verdict argument argument was not preserved because of
his failure to renew his directed verdict motion at the close of all the evidence);
Ramsey v. Commonwealth, 157 S.W.3d 194,196 (Ky. 2005) (holding defendant’s
directed verdict argument was properly preserved by his motion for directed verdict at
the close of the Commonwealth’s evidence and at the close of all the evidence); Pate v.
Commonwealth, 134 S.W.3d 593, 597-98 (Ky. 2004) (holding defendant failed to
preserve his directed verdict argument because he failed to state the specific grounds
therefor); Florence v. Commonwealth, 120 S.W.3d 699, 704 (Ky. 2003) (holding
defendant’s directed verdict argument was not properly preserved because he failed to
renew his motion for directed verdict at the close of all the evidence); Bussell v.
Commonwealth, 882 S.W.2d 111, 114 (Ky. 1994) (holdingthe defendant’s directed
verdict argument was properly preserved because he moved for directed verdict at the
close of the Commonwealth’s evidence and at the close of all the evidence);
Commonwealth v. Blair, 592 S.W.2d 132, 133 (Ky. 1979) (holding the defendants failed
to preserve their directed verdict arguments because they failed to renew their motion
for directed verdict at the close of all the evidence); Butler v. Commonwealth, 560
S.W.2d 814, 816 (Ky. 1978) (holding defendant failed to preserve his directed verdict
argument because he failed to renew his motion for directed verdict at the close of all
the evidence); and Hunter v. Commonwealth, 560 S.W.2d 808, 809 (Ky. 1977) (holding
defendant failed to preserve his directed argument because he failed to renew his
motion for directed verdict at the close of all the evidence).
13

included offenses of those charges. And, if those motions are denied, the
defendant must object to instructing the jury on the particular charge he
intends to challenge on appeal. While subsequent cases attempted to narrow
this rule’s application solely to cases where a defendant faces a multiple count
indictment,26 by virtue of the analysis and holding in Queen, doing so was folly.
The rule was intended to be applied even when there is a single count
indictment, assuming that single count has a lesser included offense or
offenses. While this misunderstanding certainly further complicates the case
law in this area, we will focus our attention primarily on cases involving a
multiple count indictment, as we feel that discussion will be sufficient to

1

address our concerns and support our ultimate conclusion that this rule
should be abolished.
Preliminarily, we note that in the years since Kimbrough, Queen, and
Campbell, there have been cases that properly cite this rule when addressing
whether a directed verdict issue was preserved for appellate review.27 However,

26 See, e.g., Johnson v. Commonwealth, 292 S.W.3d 889, 899 (Ky. 2009) (“When
a defendant has been charged with multiple crimes, a motion for a directed verdict is
not the proper procedure for challenging the sufficiency of the evidence on less than
all the charges.”); and Combs v. Commonwealth, 198 S.W.3d 574, 578 (Ky. 2006) (“The
Commonwealth argues that the issue was improperly preserved because Appellant did
not specifically object to the separate instructions on [unlawful transaction with a
minor] 1st. The proper procedure for challenging the sufficiency of evidence on one
specific count is an objection to the giving of an instruction on that charge.’ Seay v.
Commonwealth, 609 S.W.2d 128, 130 (Ky.1980). However, that rule applies only when
there are two or more charges and the evidence is sufficient to support one or more,
but not all, of the charges.”).
27 See, e.g., Gray v. Commonwealth, 534 S.W.3d 211, 216 (Ky. 2017); Hawkins
v. Commonwealth, 536 S.W.3d 697, 701 (Ky. 2017); Acosta v. Commonwealth, 391
S.W.3d 809, 817 (Ky. 2013); Baker v. Commonwealth, 973 S.W.2d 54, 55 (Ky. 1998);
and Thomas v. Commonwealth, 567 S.W.2d 299, 300 (Ky. 1978).
14

i

these cases appear to be the exception rather than the rule; and it is the failure
to apply this rule in the vast majority of cases, in conjunction with the
cumbersome nature of the rule itself, that lead us to reconsider whether its use
should continue.
The first class of cases that should be discussed on this front are those
in which a defendant was charged with a multiple count indictment, moved for
directed verdict on less than all of those counts, and this Court altogether
failed to address whether the defendant’s directed verdict argument was
properly preserved for appeal before addressing that issue on the merits. A
brief discussion of two of those cases will suffice for demonstrative purposes.
In Harris v. Commonwealth,28 Harris was convicted of second-degree
burglary, first-degree rape, and attempted first-degree sodomy.29 On appeal to
this Court Harris argued the trial court erred by “[denying] his motion for a
directed verdict on the charge of attempted first-degree sodomy.”30 The Court’s
analysis of the issue is completely devoid of any discussion regarding the
preservation of the issue.31 Nonetheless, the Court went on to address the

28 846 S.W.2d 678 (Ky. 1992), overruled on other grounds by Mitchell v.
Commonwealth, 908 S.W.2d 100 (Ky. 1995).
29 Id. at 679.
30 Id. at 681.
31 Id. at 681-82.
15

issue under the “clearly unreasonable” standard32 as though it were properly
preserved, and affirmed the conviction.33
The problem with this is for our purposes is, of course, that the
defendant apparently only moved for directed verdict on the count of attempted
first-degree sodomy. The Court should have held, that the issue was
unpreserved because he did not move for a directed verdict on all of the
charges against him and all of their lesser included offenses. Then, once those
motions were denied, the defendant should have objected to the juiy being
instructed on first-degree sodomy. The failure to address the issue in this
manner may inadvertently suggest to future readers of Harris that moving for
i

directed verdict on only one count of a multiple count indictment is sufficient
to preserve the issue for appellate review.
Turner v. Commonwealth34 was another partial directed verdict motion
case. Turner was indicted for wanton murder, first-degree burglary, and theft
by unlawful taking.35 She was ultimately convicted of wanton murder, seconddegree burglary, and theft by unlawful taking.36 On appeal to this Court,
Turner argued the trial court erred “when it denied her motion for a directed

32 “On appellate review, the test of a directed verdict is, if under the evidence as
a whole, it would be clearly unreasonable for a juiy to find guilt, only then the
defendant is entitled to a directed verdict of acquittal.” Commonwealth v. Benham,
816 S.W.2d 186, 187 (Ky. 1991).
33 Harris, 846 S.W.2d at 681.
34 153 S.W.3d 823 (Ky. 2005), overruled on other grounds by Padgett v.
Commonwealth, 312 S.W.3d 336 (Ky. 2010).
33 Id. at 826.
36 Id. at 825.
16

verdict on the wanton murder charge.”37 Again, the Court did not fully analyze
whether this issue was properly preserved. It went on to address the issue
under the “clearly unreasonable” standard as though it were properly
preserved, and ultimately reversed Turner’s conviction for wanton murder.38
Again, when the Turner Court did not apply both of the rules for
preservation, it held it was sufficient to move for a directed verdict on one
count of a multiple count indictment to preserve the issue.
There are a vast number of cases in addition to Harris and Turner with
precisely the same problem as discussed supra.39 But, as they all involve
i.

3? id. at 826.
38 Id. at 826-29.
39 See, e.g., McGruder v. Commonwealth, 487 S.W.3d 884, 886-89 (Ky. 2016);
Sasser v. Commonwealth, 485 S.W.3d 290, 292-95 (Ky. 2016); Hall v. Commonwealth,
468 S.W.3d 814, 828-30 (Ky. 2015); Bond v. Commonwealth, 453 S.W.3d 729, 736-37
(Ky. 2015); Minter v. Commonwealth, 415 S.W.3d 614, 617-18 (Ky. 2013); Johnson v.
Commonwealth, 405 S.W.3d 439, 444-47 (Ky. 2013); Mullins v. Commonwealth, 350
S.W.3d 434, 442-44 (Ky. 2011); Grady v. Commonwealth, 325 S.W.3d 333, 358 (Ky.
2010); Wiley v. Commonwealth, 348 S.W.3d 570, 576-77 (Ky. 2010); Hobson v.
Commonwealth, 306 S.W.3d 478, 479-83 (Ky. 2010); Carver v. Commonwealth, 303
S.W.3d 110, 119-20 (Ky. 2010); Brown v. Commonwealth, 297 S.W.3d 557, 560 (Ky.
2009); Morgan v. Commonwealth, 189 S.W.3d 99, 111 (Ky. 2006), overruled on other
grounds by Shane v. Commonwealth, 243 S.W.3d 336 (Ky. 2007); Riley v.
Commonwealth, 91 S.W.3d 560, 563 (Ky. 2002); Love v. Commonwealth, 55 S.W.3d
816, 826-27 (Ky. 2001); Mills v. Commonwealth, 996 S.W.2d 473, 489-90 (Ky. 1999), \
overruled on other grounds by Padgett v. Commonwealth, 312 S.W.3d 336 (Ky. 2010);
Humphrey v. Commonwealth, 962 S.W.2d 870, 874-75 (Ky. 1998); Estep v.
Commonwealth, 957 S.W.2d 191, 192 (Ky. 1997); Robey v. Commonwealth, 943
S.W.2d 616, 619-20 (Ky. 1997); Brown v. Commonwealth, 892 S.W.2d 289, 290-91
(Ky. 1995); Simpson v. Commonwealth, 889 S.W.2d 781, 782 (Ky. 1994); Sharp v.
Commonwealth, 849 S.W.2d 542, 547 (Ky. 1993); Perry v. Commonwealth, 839 S.W.2d
268, 270 (Ky. 1992); Jones v. Commonwealth, 833 S.W.2d 839, 840 (Ky. 1992);
Mounce v. Commonwealth, 795 S.W.2d 375, 381 (Ky. 1990); Carpenter v.
Commonwealth, 771 S.W.2d 822, 824 (Ky. 1989); Askew v. Commonwealth, 768
S.W.2d 51, 54 (Ky. 1989); Turner v. Commonwealth, 767 S.W.2d 557, 558 (Ky. 1988);
Pevlor v. Commonwealth, 638 S.W.2d 272, 278 (Ky. 1982); Baril v. Commonwealth, 612
S.W.2d 739, 740-41 (Ky. 1981); and Walker v. Commonwealth, 561 S.W.2d 656, 658
(Ky. 1977).
17

precisely the same error, it would be redundant to discuss them all. Suffice it
to say, many cases in our jurisprudence altogether fail to apply a common
standard of preservation for directed verdict issues.
The second class of cases that warrant discussion are those that find an
alleged directed verdict error not to be preserved under the “first rule” of
preservation: requiring that the defendant move for a directed verdict at the
close of the Commonwealth’s evidence and at the close of all the evidence and
state the specific grounds for the motion; but fail to discuss the “second rule”
of preservation: requiring the defendant to move for a directed verdict on all
counts of the indictment against him, and any lesser included offenses to those
counts, and, after having their motion denied, objecting to giving a jury
instruction on the counts the defendant wishes to challenge on appeal.
Granted, intuitively it may make sense not to discuss the “second rule” if the
Court holds the issue is unpreserved under the “first rule.” But failing to note
that the second requirement exists is problematic because it may inadvertently
suggest that only the “first rule” is required to preserve the issue.
While there are
numerous cases of this nature,40 we feel discussion of
j
one is sufficient to provide an example. In Long v. Commonwealth, Long was

40 See, e.g., McCleery v. Commonwealth, 410 S.W.3d 597, 601-02 (Ky. 2013);
Newcomb, 410 S.W.3d at 79; Jones, 331 S.W.3d at 252; Wright, 239 S.W.3d at 65;
Pate, 134 S.W.3d at 597-98; Florence, 120 S.W.3d at 704; Blair, 592 S.W.2d at 133;
Scruggs v. Commonwealth, 566 S.W.2d 405, 412 (Ky. 1978); Graham v.
Commonwealth, 562 S.W.2d 625, 627 (Ky. 1978) (overruled on other grounds by
Cardine v. Commonwealth, 283 S.W.3d 641 (Ky. 2009)); Butler, 560 S.W.2d at 816;
18

convicted of murder and attempted rape.41 On appeal, Long argued that the
trial court erred by denying his directed verdict motion solely on the count of
attempted rape.42 The Court noted that,. although Long made a motion for
directed verdict at the close of the Commonwealth’s evidence, he failed to renew
that motion at the close of all the evidence, and therefore the error was not
preserved.43
The Court did not discuss the fact that, even if Long had properly
preserved the issue under the “first rule,” he would have, presumably, failed to
do so under the “second rule.” This is due to his failure to also move for
directed verdict on the murder charge, and the lesser included offenses to
v

murder, in addition to moving for directed verdict on attempted rape and its
lesser included offenses, followed by objecting to a jury instruction on
attempted rape.
The third and final class of cases, which we believe are undoubtedly the
most troubling, are those that find a directed verdict issue to be preserved
under the “first rule,” but fail to discuss or apply the “second rule,” when
application of the “second rule” would likely have rendered the issue
unpreserved.

Hunter, 560 S.W.2d 808 at 809; and Helmes v. Commonwealth, 558 S.W.2d 162 163
(Ky. 1977).
41 559 S.W.2d 482, 483 (Ky. 1977).
42 Id. at 485.
43 M at 483-85.
19

In Bussell, supra, Bussell was convicted of capital murder and
robbery.44 On appeal, Bussell argued that the trial court erred by failing to
grant his directed verdict motions on both the murder and robbery charges.45
The Court noted that “Bussell moved for a directed verdict at the close of the
prosecution's case and renewed his motion at the close of all the evidence on
the basis of insufficient evidence of guilt.”46 It then implicitly found the error to
be preserved by reviewing the issue under the “clearly unreasonable” standard,
and held that the trial court did not err.47
But, under the “second rule” of preservation, there is a question as to
whether the error was preserved. This is due to the fact that the Court did not
address whether Bussell moved for directed verdict on all of the lesser included
offenses to murder and robbery and did not object to jury instructions on those
counts once his directed verdict motions were denied.
Similarly, in Barth v. Commonwealth, brothers Michael and P.J. Barth
were convicted of first-degree burglary, first-degree robbery, second-degree
assault, and criminal mischief.48 The brothers gained entry to the victim’s
home by feigning car trouble.49 Once inside, one of them drew a handgun,

44 Bussell, 882 S.W.2d at 112.
45 Id. at 114.
46 Id.
47 Id.

48 80 S.W.3d 390, 393 (Ky. 2001).
49 Id.

20

bound the victim, and demanded to know where his money was hidden.50
When the victim refused to tell them, the brothers dragged him across the
. floor, prodded him with the gun, and beat him with sticks.51 The victim still
refused to tell them.52 Eventually, the brothers found the victim’s money as
well as some other items, which they took and then drove away in the victim’s
car.53
On appeal, the brothers argued that the trial court erred by failing to
grant their motion for directed verdict on the count of second-degree assault
because the evidence failed to prove the victim was injured from being prodded
with the handgun.54 With regard to that issue the Court stated:
The brothers' second argument suffers from a
mischaracterization. Though they assert there was
insufficient evidence to prove they committed assault
in the second degree, an issue preserved by their
motions for directed verdict of acquittal, their complaint
is actually about the wording of the instruction, to
which they did not object.55
The Court then said that “the issue is not whether the instruction conformed to
the evidence introduced at trial, but whether the Commonwealth presented
sufficient evidence of second-degree assault to avoid a directed verdict of

so Id.
si Id.
52 Id.
53 Id.
54 Id. at 400.
55 Id. (emphasis added).
21

acquittal.”56 The Court ultimately held, citing Benham,57 that the “evidence
was sufficient to overcome a directed verdict of acquittal of second-degree
assault,” and that “[a]ny error in the instruction on second-degree assault was
not preserved for appellate review. ”58
The problem with this opinion is twofold. The Court held that the
brothers’ complaint with regard to the trial court’s failure to grant their
directed verdict on the second-degree assault charge was preserved. But there
is no indication that the brothers moved for directed verdict on the other
counts of the indictment and their lesser included offenses, which is required
to preserve the issue under the “second rule.” In addition, the Court explicitly
acknowledged that the brothers did not object to the jury instruction on
second-degree assault, which is also required to preserve a directed verdict
issue under the “second rule.”
In yet another example, Ramsey, supra, the defendant was convicted of
first-degree wanton endangerment, driving under the influence, and driving
with a suspended license.59 On appeal, Ramsey argued that the trial court

56 Id.

57 “On appellate review, the test of a directed verdict is, if under the evidence as
a whole, it would be clearly unreasonable for a jury to find guilt, only then the
defendant is entitled to a directed verdict of acquittal.” Benham, 816 S.W.2d at 187.
ss Id.
59 Ramsey, 157 S.W.3d at 195.
22

erred by failing to grant his directed verdict motion as to the wanton
endangerment charge.60 The Court held that the issue was “preserved by his
trial counsel's motion for a directed verdict at the close of the Commonwealth's
case in chief and again at the end of the defense case.”61 It then proceeded to
address his argument on the merits.62 But the Court did not discuss whether
Ramsey moved for directed verdict on the other counts of the indictment, or
any of their lesser included offenses. Nor does it mention if Ramsey objected to
instructing the jury on wanton endangerment. The apparent failure to do so
should have rendered the issue unpreserved.
•j

Next, in Burton v. Commonwealth,63 Burton was convicted of seconddegree manslaughter, second-degree assault, and driving with a suspended
license.64 On appeal, Burton argued that the trial court erred by failing to
grant his directed verdict motions on the charges that required a mens rea of
wantonness, i.e. the second-degree manslaughter and second-degree assault
charges.65 The Court found the issue to be preserved because Burton’s
directed verdict motions were specific as to the Commonwealth’s alleged failure

60 Id. at 196.
61 Id.
62 Id. at 196-98.
63 300 S.W.3d 126 (Ky. 2009).
64 Id. at 130.
65 Id. at 143.
23

to prove he acted wantonly, and addressed the issue on the merits.66 However,
the Court was silent as to whether Burton also moved for a directed verdict on
the count of driving with a suspended license, whether he moved for directed
verdict on any of the lesser included offenses of charges, or whether he
objected to instructing the jury on second-degree manslaughter and seconddegree assault.
In Doneghy, supra, Doneghy was convicted of second-degree
manslaughter, leaving the scene of an accident, second-degree assault, fourthdegree assault, first-degree possession of a controlled substance, possession of
marijuana, and possession of drug paraphernalia.67 On appeal, he argued that
the trial court erred by denying his motions for directed verdict on the charges
of second-degree manslaughter and second-degree assault.68
Regarding Doneghy’s motion for directed verdict on the charge of seconddegree manslaughter, this Court held that the issue “was properly
preserved...because Doneghy moved for a directed verdict at the close of the
Commonwealth's case-in-chief and the close of all evidence.”69 The Court then
addressed the issue on the merits, finding no error.70

ee Id. at 143-44.
67 Doneghy, 410 S.W.3d at 100.
68 Id.

69 Id. at 102 n.4.
70 Id. at 102-04.
24

The Court subsequently addressed Doneghy’s motion for directed verdict
on the charge of second-degree assault.71 While the Court did not discuss
whether the issue was preserved, we can assume that it believed the issue to
be preserved by the same means as Doneghy’s motion for directed verdict on
the second-degree manslaughter charge. The Court addressed the issue on the
merits and held there was no error.72 As With the other previously discussed
cases, the Doneghy Court did not discuss or apply the “second rule” of
\

preservation.

In Allen v. Commonwealth, Allen was convicted of burglary, criminal
mischief, theft by unlawful taking, and receiving stolen property.73 On appeal,
Allen argued the trial court erred by denying his motions for directed verdict on
the counts of burglary, criminal mischief, and theft by unlawful taking.74 The
Court explicitly noted that Allen “[did] not challenge the sufficiency of the
evidence supporting his conviction for receiving stolen property.75 But the
Court went on to hold that the issue was properly preserved:
At the close of the Commonwealth's case, Allen's
standby counsel moved for a directed verdict on counts
1, 2, and 3. The trial court pointed out that only Allen
could move for a directed verdict. At which point,
Allen adopted counsel's motions as his own. Because
his motion was not followed by more evidence, Allen

71 Id. at 110.
72 Id. at 110-11.
73 410 S.W.3d 125 (Ky. 2013).
74 Id. at 130.
75 Id. n.2.
25

was not required to renew his motion in order to
preserve the issue for appeal.76
The Court addressed the issues on the merits and held the trial court did not
err.77
Again, because Allen did not move for directed verdict on all counts of
the indictment and all of the lesser included offenses of those counts followed
by objections to jury instructions on the three counts he challenged on appeal,
the error should have been ruled unpreserved under the “second rule” of
preservation.
Finally, in Shouse, supra, Shouse was convicted of wanton murder,
second-degree criminal abuse, first-degree wanton endangerment, and
possession of a controlled substance.78 On appeal, Shouse asserted that the
trial court erred by denying her motion for directed verdict on the charge of
first-degree wanton endangerment.79 Regarding preservation of the issue, the
Court noted that Shouse “moved for a directed verdict on this issue at the close
of the Commonwealth's case and at the close of proof[.] ”80 Finding the alleged
error to be preserved, the Court addressed the issue on the merits and
ultimately reversed her conviction for first-degree wanton endangerment.81

76 Id. n.3 (citing Hampton, 231 S.W.3d at 750) (emphasis added).
77 Id. at 130-32.
78 Shouse, 481 S.W.3d at 482.
79 Id. at 488-89.
so Id. at 489.
si Id.

26

As we axe surely past the point of redundancy on this point, we simply
reiterate that Shouse suffers from the same faults as Bussell, Barth, Ramsey,
Burton, Doneghy, and Allen.82
Consequently, based on the foregoing survey of our case law in this area,
we must agree with Ray that the “second rule” of preservation for directed
verdict issues has lacked consistent application since Kimbrough, Queen, and
Campbell were rendered. Further, the rule itself is somewhat complicated,
exceedingly cumbersome, and simply does not comport with modern trial
practice. Therefore, we now overrule Kimbrough, Queen, Campbell, and their
progeny only insofar as they require defendants to comply with the “second
rule” of preservation.
Motions for directed verdict are essentially proforma in criminal trials,
and we see no reason to continue using the “second rule” when the “first rule”
is more than sufficient to preserve an issue regarding a motion for directed
verdict. The underlying purpose of a motion for directed verdict is to allow a
trial court to “draw all fair and reasonable inferences from the evidence in favor
of the Commonwealth” and thereby determine whether “the evidence is
sufficient to induce a reasonable juror to believe beyond a reasonable doubt

82 See also, e.g., Murphy v. Commonwealth, 509 S.W.3d 34 (Ky. 2017); Edmonds
v. Commonwealth, 433 S.W.3d 309 (Ky. 2014); Swan v. Commonwealth, 384 S.W.3d
77 (Ky. 2012); and Moreland v. Commonwealth, 322 S.W.3d 66 (Ky. 2010), overruled on
other grounds by Edmonds v. Commonwealth, 433 S.W.3d 309 (Ky. 2014).
27

that the defendant is guilty[.]”83 Further, doing so inherently satisfies RCr
9.2284 and its corresponding case law85 requiring the trial court to consider a
particular issue before it can be considered properly preserved for appellate
review.
Finally, we can discern no valid reason not to permit a criminal
defendant to move for directed verdict on one count of a multiple count
indictment, and we likewise see. no reason to require that defendant to also
move for a directed verdict on all of the lesser included offenses of a particular
charge. With regard to single count indictments, we can also discern no reason
to require defendants to move for directed verdict on all of the lesser included
offenses of that single count, assuming that count has lesser included offenses.
• Lastly, although motions for directed verdict and jury instructions are
somewhat related in that they both require a trial court to consider whether
there is sufficient evidence to support a particular charge, they occur at
different stages in a criminal trial and therefore are distinct. They should

83 Benham, 816 S.W.2d at 187.
84 “ Formal exceptions to rulings or orders of the court are unnecessary; but for
all purposes for which an exception has heretofore been necessary it is sufficient that
a party, at the time the ruling or order of the court is made or sought, makes known to
the court the action which that party desires the court to take or any objection to the
action of the court, and on request of the court, the grounds therefor; and, if a party
has no opportunity to object to a ruling or order at the time it is made, the absence of
an objection does not thereafter prejudice that party.” RCr 9.22.

85 See, e.g., West v. Commonwealth, 780 S.W.2d 600, 602 (Ky. 1989) (“RCr
9.22 imposes upon a party the duty to make known to the court the action he desires
the court to take or his objection to the action of the court....’ Failure to comply with
this rule renders an error unpreserved.”).
28

therefore be distinct for the purpose of appeal. In other words, objecting to a
jury instruction on a particular count should not be required in order to
/

preserve a directed verdict issue on that count for appeal.
Accordingly, we now hold that in order to preserve an alleged directed
verdict issue for appeal, criminal defendants must: (1) move for a directed
verdict at the close of the Commonwealth’s evidence; (2) renew the same
directed verdict motion at the close of all the evidence, unless the defendant
does not present any evidence; and identify the particular charge the
Commonwealth failed to prove, and must identify the particular elements of
that charge the Commonwealth failed to prove. Criminal defendants may move
for directed verdict on one count of a multiple count indictment without
rendering the alleged error unpreserved; defendants are not required to move
for directed verdict on any lesser included offenses to a particular charge in
order to preserve the issue; and, nor are they required to object to instructing
the jury on that particular charge to preserve the alleged directed verdict error.
In the case before us, Ray complied with the appropriate rules. We
therefore now address his directed verdict arguments on the merits. When
considering whether to grant a motion for directed verdict
the trial court must draw all fair and reasonable
inferences from the evidence in favor of the
Commonwealth. If the evidence is sufficient to induce
a reasonable juror to believe beyond a reasonable
doubt that the defendant is guilty, a directed verdict
should not be given. For the purpose of ruling on the
motion, the trial court must assume that the evidence
for the Commonwealth is true, but reserving to the

29

- r

jury questions as to the credibility and weight to be
given to such testimony.86
On appeal, “the test of a directed verdict is, if under the evidence as a whole, it
would be clearly unreasonable for a jury to find guilt, only then the defendant
is entitled to a directed verdict of acquittal. ”87 With these principles in mind,
we will address each of Ray’s directed verdict arguments in turn.
B. The trial court did not err by denying Ray’s motion for directed
verdict on the charge offirst-degree robbery.
Ray asserts that the elements of first-degree robbery were not met
because his use of force against Denise was not contemporaneous with his
«

theft of her purse. In other words, he asserts that he did not form the intent to
steal Denise’s purse until after his physical attack upon her was complete, and
he therefore could not be convicted of first-degree robbery. We disagree.
In Bowling v. Commonwealth, Bowling was convicted of, among other
things, two counts of first-degree robbery after shooting two gas station
attendants to death on two separate occasions and stealing money from those
gas stations.88 Bowling made the same temporal argument as Ray does in the
case at bar regarding when the money was taken from the gas station in
relation to when he killed the victims. This Court disagreed and held that:
The offense of first degree robbery is committed even
when the robber decides to steal the property after he
kills the victim, so long as the theft and the murder
are part of the same criminal episode.... Evidence in
86 Benham, 816 S.W.2d at 187.
87 Id.

88 942 S.W.2d 293, 297 (Ky. 1997), overruled on other grounds by McQueen v.
Commonwealth, 339 S.W.3d 441 (Ky. 2011).
30

“

v_-

-v
this case conclusively established that cash money
was taken from the service stations and that Smith
and Hensley were killed in conjunction with the taking
of money. It is irrelevant whether the money is taken
and the victim killed or the victim killed and then the
money taken. KRS 515.02089 does not require that the
property be taken directly from the body of the person
threatened or injured by the robber.90
Similarly, in this case, it is irrelevant that Ray stole Denise’s purse after
he attacked her because the robbery was part of the same criminal episode as
the attempted murder. The trial court therefore did not err by denying his
motion for directed verdict.
*

C. The trial court did not err by denying Ray’s motion for directed
verdict on the charge offirst-degree wanton endangermeht.
l

Ray next asserts that the trial court erred by failing to grant his directed
verdict on the first-degree wanton endangerment charge in relation to his
encounter with Tim because simply raising the hammer at Tim, alone, was
insufficient to create a substantial danger of death or serious physical injury.91

89 “(1) A person is guilty of robbery in the first degree when, in the course of
committing theft, he uses or threatens the immediate use of physical force upon
another person with intent to accomplish the theft and when he:
(a) Causes physical injury to any person who is not a participant in the
crime; or
(b) Is armed with a deadly weapon; or
(c) Uses or threatens the immediate use of a dangerous instrument upon
any person who is not a participant in the crime.” KRS 515.020.
99 Id. at 307.
91 “A person is guilty of wanton endangerment in the first-degree when, under
circumstances manifesting extreme indifference to the value of human life, he
wantonly engages in conduct which creates a substantial danger of death or serious
physical injury to another person.” KRS 508.060(1).
31

The evidence showed that Tim was an elderly, invalid man with many
health problems. In particular, Tim testified that during the three months that
Ray and Denise lived with him, he was having a lot of heart health issues and
did not know if he would live much longer. Tim had five different operations
related to his pacemaker during that time. Therefore, considered in a light
most favorable to the Commonwealth, the evidence was sufficient to conclude
that raising a hammer at Tim created a substantial danger of physical injury or
death, as that excitement could have easily caused him to have a heart attack.
'

Further, Ray could have accidentally dropped the hammer on Tim’s head which
also could have caused serious physical injury or death. The trial court
therefore did not err in denying Ray’s motion for directed verdict on the wanton
endangerment charge.
II. Sentencing Issues
Ray also argues that the sentencing phase of his trial was unfairly

t
tainted by incorrect information about his parole eligibility. Specifically, he
complains about testimony by the Commonwealth’s sole witness in the
sentencing phase, Officer Joshua Whitfield, (Ofc. Whitfield), and a statement
made by the Commonwealth during its closing argument. Ray concedes that
these alleged errors were not preserved by contemporaneous objection but has
requested palpable error review in accordance with RCr 10.26. Because these
alleged errors are reviewed under different standards, we will address each in
turn.

32

(A) Ofc. Whitfield’s Testimony:
Ofc. Whitfield gave the following testimony regarding Ray’s first-degree
wanton endangerment conviction:
CW92: On wanton endangerment first-degree [what is
its class of felony and calculation of parole eligibility]?
Ofc. Whitfield: Okay, it’s a Class D [felony], it’s 15%
parole eligibility with a 1-5 year sentence.
CW: So it is truly the reverse of robbery and burglary,
that now he’s eligible on 15% of that time.
Ofc. Whitfield: Right.
Ray argues that this testimony was false because it only applies to a nonviolent
offender convicted of a Class D felony serving an aggregate sentence of one to
five years. We agree. KRS 439.340(3)(a) provides that
A nonviolent offender convicted of a Class D felony
with an aggregate sentence of one (1) to five (5)
years who is confined to a state penal institution or
county jail shall have his or her case reviewed by the
Parole Board after serving fifteen percent (15%) or two
(2) months of the original sentence, whichever is
longer.93
Therefore, had Ray been convicted of first-degree wanton endangerment94
alone, or in conjunction with another offense or offenses that did not confer
violent offender status upon him, Ofc. Whitfield’s testimony would have been
correct. However, KRS 439.3401 further directs that

92 Commonwealth.
93 emphasis added.
94 First-degree wanton endangerment is a Class D felony. KRS 508.060(2).
33

(1) As used in this section, Violent offender’ means any
person who has been convicted of or pled guilty to
the commission of:
(1) Burglary in the first-degree accompanied by
the commission or attempted commission of an
assault described in KRS 508.06095; [or]
r

(n) Robbery in the first-degree.

As previously mentioned, Ray was convicted of both first-degree burglary
accompanied by first-degree wanton endangerment and first-degree robbery.
Therefore, there is no question that he was disqualified from being considered a
non-violent offender for the purposes of parole. Further, his convictions for
attempted murder, first-degree robbery, and first-degree burglary all carried a
minimum sentence of ten years imprisonment, meaning his aggregate sentence
would not be one to five years.
-.1

But, even though Ofc. Whitfield’s testimony regarding first-degree
wanton endangerment was dearly false, that does not end our inquiry.
The use of incorrect, or false, testimony by the
prosecution is a violation of due process when the
testimony is material. This is true irrespective of the
good faith or bad faith of the prosecutor. When the
prosecution knows or should have known that the
testimony is false, the test for materiality is whether
there is any reasonable likelihood that the false
testimony could have affected the judgment of the
jury.96

95 First-degree wanton endangerment.
96 Robinson v. Commonwealth, 181 S.W.3d 30, 38 (Ky. 2005) (internal citations
and quotation marks omitted).
34

!

Accordingly, we must next consider whether there is a reasonable likelihood
that Ofc. Whitfield’s incorrect testimony affected the judgment of the jury.
To begin, we note that Ofc. Whitfield provided correct testimony
regarding Ray’s other, more serious, convictions. Specifically, that the
attempted murder charge carried a sentence of ten to twenty years with parole
eligibility after 20%97 time served; that the first-degree robbery charge carried a
sentence of ten to twenty years with parole eligibility after 85% time served;
and that the first-degree burglary charge carried a ten-to twenty-year sentence
with parole eligibility after 85%98 time served. After receiving this information,
the jury elected to sentence Ray to the maximum of twenty years on each of
these charges, to run consecutively. It also chose to sentence Ray to the
maximum of five years on the count of first-degree wanton endangerment and
the maximum of one year on the count of violating an EPO /DVO.
-

So, the question before, us is: is there a reasonable likelihood that the

jury would have sentenced Ray any differently if it was informed, correctly, that
Ray would be eligible for parole after serving 20% of his sentence for firstdegree wanton endangerment, rather than 15%? We hold there is not.
The jury, rather than being unfairly motivated by Ofc. Whitfield’s
incorrect testimony, as Ray asserts, was more likely motivated by the terrible

97 The attempted murder charge in this case was not considered a violent
offense because neither death nor serious physical injury occurred. See KRS
439.3401(l)(c).
98

As previously mentioned, the burglary was considered a violent crime
because it was accompanied by first-degree wanton endangerment. See KRS
439.3401 (1)(1).
35

facts of this case and the overwhelming evidence of Ray’s guilt. Ray, in
violation of an active EPO/DVO, broke into the home of his estranged wife,
attempted to kill her in front of her young child, threatened to kill an invalid
man with a hammer, pursued them as they fled his attacks, stole a large sum
of money, and fled the state. Further, the Commonwealth had certified copies
of two of Ray’s prior convictions entered into evidence during sentencing. One
of those convictions occurred only four years prior to this case and included a
count of felon in possession of a firearm and first-degree wanton
f

endangermcnt.

,

The jury clearly had ample justification for sentencing Ray to the
maximum for all of his convictions, including first-degree wanton
endangerment, absent correct testimony by Ofc. Whitfield about his parole
eligibility on that charge. Accordingly, we hold that the error was not
palpable."
/

(B) Commonwealth’s Closing Argument
Ray’s final assertion of error is based on the following statement made by
the Commonwealth during its closing argument.
You can run [the sentences] all consecutive, one after
the other. You can run them all concurrent, at the
same time. You can mix and match. I’m asking you to
max them out and run them consecutive for 65 years.
I know that sounds like a lot, but you’ll also see the
99 See Martin v. Commonwealth, 409 S.W.3d 340, 349 (Ky. 2013) (holding
“Under such circumstances, we do not regard the error as palpable. The
circumstances of this case strongly suggest that the maximum sentence resulted from
.the nature of this particular conviction in combination with Appellant's several prior
^'" ''■'■ions for drug-related crimes, rather than the jury's awareness of the dismissed
'"Verges underlying his criminal past.”).
36
\

probation and parole eligibility, that doesn’t
necessarily mean, unfortunately under our laws, 65
years. Because he still meets the Parole Board no
matter what in 24 years. That’s a long time, I agree.
He brought it on himself, so I’m not concerned about
that part. But no matter how many years, he’s going
to meet the Parole Board because that’s the way the
.
law is right now. Even on a life sentence they meet the
Parole Board in 20 [years]. And the most he can go
without going before the Parole Board is 24
years. 100

I

As closing arguments are not evidence, an alleged misstatement of law by the
prosecution during closing arguments is reviewed as a claim of prosecutorial
misconduct.101 Because Ray concedes this alleged error was unpreserved, we
must determine whether the Commonwealth’s conduct was “flagrant.”102
We consider four factors in making this determination:
(1) whether the remarks tended to mislead the jury or
to prejudice the accused; (2) whether they were
isolated or extensive; (3) whether they were
deliberately or accidentally placed before the jury; and
(4) the strength of the evidence against the accused.103
To begin, we note that this information was in fact false: “under the
current state of the law, a violent offender sentenced to a term of years is
eligible for parole consideration after serving eighty-five percent (85%) of the
sentence imposed, or twenty years, whichever is less.”104 Thus, if the jury
imposed the maximum sentence of sixty five years with parole eligibility after

100

(emphasis added).

101

Matheney v. Commonwealth, 191 S.W.3d 599, 606 (Ky. 2006).

102

Bowling v. Commonwealth, 553 S.W.3d 231, 242-43 (Ky. 2018).
Id. at 243 (internal quotation marks omitted).

103
104

Hampton v. Commonwealth, 133 S.W.3d 438, 444 (Ky. 2004).
37

85% of time served, Ray would be eligible for parole after twenty years, not
twenty four.105 The statements would have therefore been misleading to the
jury. However, it was unlikely to have prejudiced the defendant, as the jury
believed Ray would have to serve four more years than was actually required.
And, the discrepancy between twenty years and twenty-four years is not large.
Next, the statements could be considered extensive. The Commonwealth
stated three times during closing argument that, with the maximum possible
sentence, Ray would be eligible for parole in twenty-four years.
But, review of the record suggests that this misstatement was not
intentional. During closing argument, the Commonwealth correctly stated that
defendants who receive a life sentence are eligible for parole after twenty years.
The arbitrary amount of twenty-four years appears to be either a
miscalculation by the prosecutor or a misstatement.
Finally, 'and as previously mentioned, the evidence of Ray’s guilt was
1

'

■

.

■

•

overwhelming. Among other things, Denise, Josh, Tim, and Kirk all identified
him as Denise’s attacker, and he had items stolen from the home that night on
his person at the time of his arrest. Ray later admitted to law enforcement that
he broke into the home that night and had an altercation with Denise.
On balance, we do not believe that the Commonwealth’s misstatement of
parole eligibility, which was off by only four years, was flagrant. It therefore did

38

Vj

not constitute manifest injustice resulting in palpable error. We consequently
decline to remand for a new sentencing hearing.
CONCLUSION
Based on the foregoing, we affirm.
Minton, C.J.; Hughes, Keller, Lambert, Nickell, VanMeter and Wright,
JJ.; sitting. Minton,
C.J.; Hughes, Lambert, VanMeter and Wright, JJ.,
:
concur. Keller and Nickell, JJ. concur in result only.

COUNSEL FOR APPELLANT:
Aaron Reed Baker
Department of Public Advocacy
Assistant Public Advocate

!

COUNSEL FOR APPELLEE:

•t

Daniel Jay Cameron
Attorney General of Kentucky
V'

Christopher Henry
Assistant Attorney General

1
/v

VJ

1
\

i

39
V

STATE OF KENTUCKY
COUNTY OF GRAVES
I HEREBY CERTIFY THE FOREGOING TO BEA1RUE
AND CORRECT COPY OF A AM 3 THAT IS ON FILE
IN THIS OFFICE. FILE NUMBER*^? WITNESS MY
HANDANPSEALTHIS 25 S^OTPefe 20VQ
EMILY WARD BUZANIS, CLERK
GRAVES COUNTY CIRCUIT CLERK
by
mo.
,D.C.

u*

V\

TXT

Mssgsa

JUDGMENT AND SENTENCE
ON PLEA OF NOT GUILTY
JURY TRIAL

Commonwealth of Kentucky
Graves Circuit Court

Social SeiffSol^^^-4977
Date of Birth: October 8,1968

COMMONWEALTH OF KENTUCKY

PLAINTIFF

VS.
BRADY LEE RAY

Sex
M

Race
White

Hair
Gray

DEFENDANT

Eye
Grn

Height
5’8”

Weight
178

Operator Lie. No. & State

The Defendant appeared in open court on March 14,2017, with counsel, Hon.
Dennis Null, Sr._By agreement with the attorney for the Commonwealth; the Defendant
entered a plea of NOT GUILTY to the following charges contained in the Indictment:
Count 1: Attempted Murder; Count 2: Robbery, 1st Degree; Count 3: Burglary 1st
Degree; Count 4: Burglary 3rd Degree; Count 5: Wanton Endangerment 1 St
Degree; Count 6: Wanton Endangerment 1st Degree; Count 7: Criminal Mischief,
1st Degree, and Count 8: Violation of EPO/DVO, which offenses were committed on
or about January 31,2017, when the Defendant was 48 years of age. On November 2729,2018, the case was tried before a jury which returned the following verdict:
Count 1: Attempted^Hurder - twenty (20) years to serve
Count 2: Robbery, 1st Degree - twenty (20) years to serve
Count 3: Burglary 1st Degree- twenty (20) years to serve
Count 6: Wanton Endangerment 1st Degree - five (5) years to serve
Count 8: Violation of EPO/DVO - twelve (12) months
ENTERED
DATE
2- 25 - IQ
EMILY WARD BUZANIS, CLERK
GRAVES rvi
COUNTY
CIRCUIT COURT
A

Count 4: Burglary 3rd Degree - DISMISSED
Count 5: Wanton Endangerment 1st Degree - DISMISSED
Count 7: Criminal Mischief, 1st Degree - DISMISSED
For the purpose of sentencing, on February 19,2019 the Defendant appeared in
open court with counsel, Hon. Dennis Null, Sr. The Court inquired of the Defendant and
counsel whether they had any legal cause to show why judgment should not be
pronounced, and afforded the Defendant and counsel the opportunity to make statements
in the Defendant’s behalf and to present any information in mitigation of punishment.
The Court having informed the Defendant and counsel of the factual contents and
conclusions contained in the written report of the presentence investigation prepared by
the Division of Probation and Parole and provided Defendant’s attorney with a copy of
the report although not the sources of confidential information, the Defendant and
counsel were granted an opportunity to review the contents of the presentence
investigation and to agree with or controvert the factual contents of the report. Having
given due consideration to the written report by the Division of Probation and Parole, and
. to the nature and circumstances of the crime, as well as the history, character and
condition of the Defendant, and any matters presented to the Court by the Defendant (or
counsel, if any), the Court is of the opinion:
11

The Victim suffered death or serious injury;

| x[

That imprisonment is necessary for the protection of the public because:
|

1 There is a likelihood that during a period of probation, probation with an
alternative sentencing plan or conditional discharge, the Defendant will
commit a Class D or Class C felony, or a substantial risk that the
Defendant will commit a Class B or Class A felony;

1

| The Defendant is in need of correctional treatment that can be provided
most effectively by Defendant’s commitment to a correctional institution;

1 x) Probation, probation with an alternative sentencing plan, or conditional
discharge would unduly depreciate the seriousness of Defendant’s crime;
1

[ Defendant is ineligible for probation, probation with alternative sentencing
plan, or conditional discharge because of the applicability of KRS 532.080
(PFO); KRS 439.3401(Violent Offender), or KRS 533.060 (Use of
Firearm).

I

Defendant is eligible for probation, probation with alternative sentencing
plan, or conditional discharge as hereinafter ordered on AOC-455.
No sufficient cause having been shown why judgment should not be pronounced,

it is ADJUDGED BY THE COURT that Defendant is GUILTY of the following
charge(s):
Count 1: Attempted Murder - Class A Felony
Count 2: Robbery, Is* Degree - Class B Felony
Count 3: Burglary 1st Degree- Class B Felony
Count 6: Wanton Endangerment 1st Degree - Class D Felony
Count 8: Violation of EPO/DVO
Defendant is SENTENCED as follows:
Count 1: Twenty (20) Years to Serve
Count 2: Twenty (20) Years to Serve
Count 3: Twenty (20) Years to Serve
Count 6: Five (5) Years to Serve
Count 8: Twelve (12) Months
Time in Counts 1,2,3 and 6 to run consecutively for a total of 65 years. Time in
Count 8 to run concurrently with Counts 1,2,3, and 6.
1. Imprisonment
j x|

Imprisonment for a maximum term of sixty - five (651 years.

□

Probated for a maximum term of
year(s)/______ month(s),
with the conditions as stated in the attached Order of Probation.

|

| Conditionally discharged for a maximum term of
year(s), with
conditions as stated in the attached Order of Conditional Discharge.

2. Court Costs. Restitution. Fees and Fines

□
□
□

Fees of $

[

Restitution of $___

|

Court Costs of $

to be paid
to be paid

Fines of $_______ to be paid

|

|

DCE fee of $

to be paid
to be paid____________ .

If Defendant fails to pay by said date he/she shall appear to SHOW CAUSE
pursuant to KRS 534.020.
| x|

Court costs, including reimbursement for Public Defender fees are waived.

3. Bond

s
|

It is ORDERED that Defendant’s bond is released.

| If bond was posted by Defendant, it is ORDERED that bond shall be
applied to fines and/or costs.

1 x[ Bond filing fee is waived.
4. It is further ORDERED that:
|

[ The Defendant having been convicted of a felony offense under KRS
Chapter 510,529.100 involving sexual activity, 530.020,530.064 (l)(a),
or 531.310 or 531,320, is sentenced to a five (5) year period of post
incarceration supervision upon release from incarceration or parole.

1

| Pursuant to KRS 17.510(2), Defendant has been convicted of a sex crime
or a crime against a minor, or has been committed as a violent predator,
and has been informed of duty to register with the appropriate local
Probation and Parole office.

[

| Defendant having been convicted of a felony offense under KRS 529,510
and/or 635.110, shall have a sample of blood taken for HIV testing per
separate order.

|

| Defendant having been convicted of a felony offense under KRS 508.140,
508.150,510.040,510.050,510.060, 510.070,510.080,510.090,510.110,
510.120, and/or 510.130, shall have an Interpersonal Protective Order
entered.

|

| Pursuant to KRS 17.170, Defendant having been convicted of a felony
offense under KRS Chapter 510 (Sexual Offense) or KRS 530.020
(Incest), shall have a sample of blood taken by the Department of
Corrections for DNA law enforcement identification purposes and
inclusion in law enforcement identification databases.

|

| The Defendant shall not be released from probation supervision until
restitution has been paid in full and all other aspects of probation have
been successfully completed.

|

| By preponderance of evidence, the Court finds hate was a primary factor
in the commission of the crime by the Defendant. KRS 532.031 (2).

I—I
• sentenced to a term of incarceration for a nonstatus juvenile offense,
I
Bemg
moving traffic violation, criminal violation, misdemeanor, or Class D
felony, Defendant is ordered to pay costs of incarceration in the amount of
$
as allowed by KRS 532.352. Said costs shall be
reimbursed to

|

| The Commonwealth having in its offer recommended that upon a plea of
. guilty that this be treated as a violent offense, this Court hereby
determines the Defendant to be a violent offender and does hereby
designate that the victim suffered serious physical injury within the
meaning of KRS 439.3401.

[

| Pursuant to Defendant’s conviction on DUI/driving on DUI suspended
license, his/her license shall be suspended for__________________ .

| x ] The Defendant may proceed in forma pauperis for purposes of appeal,
without payment of costs.
[

| Defendant is ordered to pay costs of incarceration.

|

j Defendant shall forfeit all seized items..

| x| Defendant be delivered to the custody of the Department of Corrections at
such location within this Commonwealth as Corrections shall designate.

DATED this ^

day of February, 2019.

1. 6Timothy C. Stark, JUDGE
GRAVES CIRCUIT COURT

Copy Distribution:
Defendant
Defendant’s Attorney
Prosecutor
Probation and Parole
Jail
Sheriff (2 certified copies if Defendant sentenced to death or confinement)
Roederer Correctional Complex - LaGrange, KY

